Bob Ferguson

ATTORNEY GENERAL OF WASHINGTON
Solicitor General Division
PO Box 40100 • Olympia WA 98504-0100 • (360) 753-6200
February 11, 2020
Via Electronic Filing
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Chiafalo v. Washington, No. 19-465
Colorado Department of State v. Baca, No. 19-518
Blanket consent to amicus curiae briefs

Dear Mr. Harris:
Pursuant to Supreme Court Rule 37.3(a), Respondent in No. 19-465, the State of
Washington, provides blanket consent to the filing of amicus curiae briefs in
support of either or of neither party in these consolidated cases.
Sincerely,
s/ Noah G. Purcell
NOAH G. PURCELL
Solicitor General
360-753-2536
noahp@atg.wa.gov
cc:

L. Lawrence Lessig, Counsel for Petitioners in 19-465
lessig@law.harvard.edu

